GR-80-99-002
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Audit of Drug Court and Technical Assistance Project 
Grants Administered by 
The Justice Management Institute
Denver, Colorado
GR-80-99-002
 
November 3, 1998
 
* * * * *
EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of the Drug
Court and Technical Assistance Project, Grant Nos. 95-DC-MX-K001 and 98-DC-VX-K002,
administered by The Justice Management Institute (JMI), for the period November 1, 1996,
to September 30, 1998. JMI received one initial and two supplement awards totaling
$1,180,064 for Grant No. 95-DC-MX-K001, which is effective September 30, 1995, through
December 31, 1998. JMI received one award for $75,000 for Grant No. 98-DC-VX-K002, which
was effective June 1, 1997, through June 30, 1998. This audit was conducted at the request
of the Office of Justice Programs (OJP).
Generally, JMI properly managed the grant. Based on information provided by the grant
officials, we determined that the grant objectives had been implemented. However, we
identified the following concerns:


JMI did not submit all required Financial Status Reports and Categorical Assistance
    Progress Reports, and those submitted were not always timely. 


JMI included in three Requests for Reimbursement amounts that had already been
    reimbursed to JMI, and thus were unallowable. These three instances of double-billing
    resulted in questioned costs totaling $684.

These weaknesses are discussed in the Findings and Recommendations section of this
report. Our audit scope and methodology are described in Appendix I.
#####